No. 18A1135
IN THE SUPREME COURT OF THE UNITED STATES
_________________
FNU TANZIN, SPECIAL AGENT, FBI, ET AL., APPLICANTS
v.
MUHAMMED TANVIR, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR A FURTHER EXTENSION OF TIME WITHIN WHICH TO
FILE A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT, via email and first-class mail,
postage prepaid, this 3rd day of June, 2019.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 3, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

18A1135
FNU TANZIN, SPECIAL AGENT, FBI, ET AL.
MUHAMMED TANVIR, ET AL.
JENNIFER R. COWAN
EROL GULAY
SANDY TOMASIK
DEBEVOISE & PLIMPTON LLP
919 THIRD AVENUE
NEW YORK, NY 10022
212-909-7445
JRCOWAN@DEBEVOISE.COM
RAMZI KASSEM
NAZ AHMED
CLEAR PROJECT
MAIN STREET LEGAL SERVICES, INC.
CITY UNIVERSITY OF NEW YORK SCHOOL
OF LAW
2 COURT SQUARE
LONG ISLAND, NUY 11101
718-340-4558
RAMZI@.KASSEM@LAW.CUNY.EDU
SHAYANA D. KADIDAL
BAHER AZMY
CENTER FOR CONSTITUTIONAL RIGHTS
666 BROADWAY
7TH FLOOR
NEW YORK, NY 10012
212-614-6438
KADIDAL@CCRJUSTICE.ORG

